           Office Of Inspector General




March 18, 2005

ALFRED INIGUEZ
VICE PRESIDENT, PACIFIC AREA OPERATIONS

ALEXANDER LAZAROFF
VICE PRESIDENT, EASTERN AREA OPERATIONS

SUBJECT:         Audit Report – Surface Networks – Intermodal Rail and Highway
                 Transportation – Pacific Area (Report Number NL-AR-05-004)

On February 25, 2004, we began a nationwide audit of scheduled bulk mail center
highway transportation routes. The objectives of our audit were to evaluate the
effectiveness of the routes and identify opportunities to save money. The audit was
requested by the vice president, Network Operations Management (Project Number
04YG013NL003).

                                         Background

Bulk mail includes magazines, advertising, and merchandise shipped by major mailers
like publishers, catalog companies, or on-line retail companies. It is processed by a
system of 21 bulk mail centers and other facilities nationwide. The Postal Service
spends more than $500 million annually on contracts to transport bulk mail over
highway networks. Contracted routes are controlled by individual Postal Service areas.

During our work in the Eastern Area, we noted Pacific Area mail inbound by rail to
Greensboro, North Carolina. The rail transportation was administered by the Pacific
Area. The Postal Service pays for rail service only when it is actually used.
Consequently, we examined the mail volume to determine if the mail could be
transported more economically using excess space on existing highway contract routes.
This report focuses on rail and highway routes administered by the Pacific and Eastern
Areas.

                              Objective, Scope, and Methodology

The objective of this report was to identify potential savings that could be achieved by
reducing railroad service from Los Angeles, California, to Greensboro, North Carolina,
and placing mail in excess space on already existing highway contract transportation.

   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Surface Networks – Intermodal Rail and Highway                                   NL-AR-05-004
 Transportation – Pacific Area




During our work, we interviewed headquarters, Pacific Area, and Eastern Area officials;
reviewed relevant Postal Service policies and procedures; interviewed managers and
employees; and observed and photographed operations. We also analyzed rail
transportation inbound to the Eastern Area from the Pacific Area, including 39 rail trips
from Los Angeles to Greensboro, and coordinated with Pacific and Eastern Area
officials to consider alternate highway transportation. We consulted with financial
analysts, computer analysts, and other subject matter experts; evaluated mail volume
and the type of mail carried; and considered service standards. We discussed our
observations and conclusions with appropriate management officials and included their
comments where appropriate.

We conducted work associated with this report from June 2004 through March 2005 in
accordance with generally accepted government auditing standards, and included such
tests of internal controls that we considered necessary under the circumstances.

During our audit we examined computer data in management’s Transportation Contract
Support System and Transportation Information Management Evaluation System. We
did not audit or comprehensively validate the data; however, we noted several control
weaknesses that constrained our work. For example, the Transportation Information
Management Evaluation System had missing records and inaccurate trailer load
volumes. Even though data limitations constrained our work, we were able to partially
compensate by applying alternate audit procedures, including source document
examination, observation, physical inspection, and discussion with responsible officials.

                                    Prior Audit Coverage
Over a two-year period, the Office of Inspector General (OIG) issued ten audit reports
covering evaluation of highway contract routes, and has worked with the Postal Service
to identify 1,011 highway contract trip eliminations, consolidations or modifications,
potentially resulting in savings of $50.5 million over the life of the contracts. The Postal
Service eliminated or modified these trips without negatively affecting service or
operational flexibility because mail volume was low and mail could be consolidated on
other trips. For more detailed information about these audits see Appendix A.

                                         Audit Results
Rail and Highway Service Consolidation

The Postal Service could save approximately $1 million over the normal four-year term
of affected highway contracts by reducing rail shipments and eliminating an average of
two rail trips per week from Los Angeles to Greensboro. These savings represent




                                                 2
Surface Networks – Intermodal Rail and Highway                                                         NL-AR-05-004
 Transportation – Pacific Area




potential funds that could be put to better use and will be reported as such in our
Semiannual Report to Congress. 1

Postal Service policy requires transportation managers to balance service and cost.
Rail shipments could be reduced because excess space exists on already contracted
highway routes. Consequently, managers could reduce rail shipments, place mail in
excess highway space, and still maintain service standards. There would be no rail
service termination costs because the Postal Service pays for rail transportation only
when it is actually used.

The Los Angeles and San Francisco bulk mail centers use highway transportation to
send mail to Greensboro. We examined Postal Service transportation records for a
19-week period from February 1, 2004, through June 15, 2004, and discussed
requirements with Postal Service transportation managers. Based on our examination
of records, and our discussions with transportation managers, we concluded:

    •    Trips on highway contract route 27418 from Los Angeles to Greensboro
         generally move across the country with 17 to 39 percent cargo space available.

    •    Trips on highway contract route 27419 from San Francisco to Greensboro
         generally move across the country with 19 to 52 percent cargo space available.

    •    Trips on highway contract route 90111 from Los Angeles to San Francisco
         generally have 23 to 92 percent cargo space available.

Consequently, we concluded some mail currently shipped by rail from Los Angeles to
Greensboro, could be shipped by highway instead, or alternatively, could be sent to
San Francisco for transshipment to Greensboro.

Cooperative Effort and Rapid Implementation

Eastern and Pacific Area managers and transportation managers in Los Angeles,
San Francisco, and Greensboro agreed with our conclusions that rail service could be
reduced while still meeting service standards, and they stated that they would make the
necessary adjustments. Eastern Area officials noted that the decision rested with the
Pacific Area since the rail trips were coordinated by the Pacific Area.

On January 15, 2005, Pacific Area officials rerouted mail on existing highway trips to
Greensboro in order to reduce rail traffic. Greensboro officials subsequently noted that
trailer space utilization had significantly improved, and trailers arriving from California
were hauling more mail.

1
  The cost of one rail trip from Los Angeles to Greensboro is $2,515. The estimated $1 million is calculated as
follows: $2,515 X 2 trips per week X 52 weeks per year X 4 years = $1,046,240.


                                                          3
Surface Networks – Intermodal Rail and Highway                                NL-AR-05-004
 Transportation – Pacific Area




Exit Conference

On February 7, 2005, we conducted a formal exit conference with Pacific Area officials
and discussed their rapid implementation of our proposals. During the conference,
Pacific Area officials provided an example of the dynamic and ever changing nature of
the transportation network. They explained that to accommodate ocean transportation
from San Francisco to Honolulu, mail was now shipped on the Los Angeles–
San Francisco route we identified in our analysis, and consequently, that route could not
accommodate as much of the Greensboro mail as anticipated. However, Pacific Area
officials suggested an alternate solution by adding a stop in Los Angeles on a
San Francisco–Greensboro route controlled by the Eastern Area. The Pacific Area
explained that they would coordinate with the Eastern Area and provide full
documentation when they had fully implemented the alternate solution.

We did not audit or validate the alternate solution. However, we consider the proposal
responsive to the intent of our recommendation. We thank the Pacific and Eastern
Areas for their rapid review and cooperation.

Recommendation

We recommend the vice president, Pacific Area Operations, and the vice president,
Eastern Area Operations:

   1. Coordinate the necessary contract modifications and adjustments in order to
      reduce mail transportation by rail from the Pacific Area to the Eastern Area.

Management’s Comments

Both Eastern and Pacific Area management concurred with our finding and
recommendation. Eastern Area management stated they would partner with the Pacific
Area to reduce the cost of rail, but, since they had not yet coordinated with the Pacific
Area or received Postal Service Headquarters’ concurrence, they could not agree with
our estimated monetary impact at this time. Pacific Area management stated they
would make the appropriate modifications and they had already submitted the changes
to Postal Service Headquarters. Management’s comments, in their entirety, are
included in Appendix B of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to our finding and recommendation. The
service change submitted to headquarters reflects the level of cooperation the Eastern
and Pacific Areas provided throughout our audit. We applaud the immediate action
taken by the two areas and we consider the actions they have taken or planned
sufficient to address the issues we identified in the finding.


                                                 4
Surface Networks – Intermodal Rail and Highway                               NL-AR-05-004
 Transportation – Pacific Area




The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. The OIG requests written confirmation when corrective
action is completed. This recommendation should not be closed in the follow-up
tracking system until the OIG provides written confirmation that the recommendation
can be closed.

We appreciate the cooperation and courtesies provided by your staff during our audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Paul E. Vogel
    Anthony M. Pajunas
    Steven R. Phelps




                                                 5
Surface Networks – Intermodal Rail and Highway                                                  NL-AR-05-004
 Transportation – Pacific Area




                                       APPENDIX A. PRIOR AUDIT COVERAGE


                                                                                                                                                  Number
                                                                                       Number of                        Number of     Number of   of Trips
                                                                                         Trips                          Trips With    Trips With Identified
                                                                                       Identified       Potential         Which         Which      by the
                    Report Name                          Report           Report Final    for            Savings       Management    Management Postal
                                                         Number            Issue Date Elimination       Identified       Agreed       Disagreed   Service

Highway Network Scheduling - Pacific Area              TD-AR-02-003       9/24/2002       158       $      4,500,417        76           34          48
Highway Network Scheduling - Northeast Area            TD-AR-03-002       11/25/2002       18               776,992         10            8
Highway Network Scheduling - Capital Metro Area        TD-AR-03-007        3/28/2003       34             1,144,218         20           14
Highway Network Scheduling - New York Metro Area       TD-AR-03-008        3/31/2003       32               470,123         12           20
Highway Network Scheduling - Southwest Area            TD-AR-03-010        7/11/2003      249             5,989,082        148           101
Highway Network Scheduling - Western Area              TD-AR-03-013        9/23/2003       70             2,721,530         30           40
Highway Network Scheduling - Southeast Area            TD-AR-03-014       9/26/2003       101            11,352,881         23           24          54
Highway Network Scheduling - Eastern Area              TD-AR-03-015       9/30/2003       181            10,577,367        128           53
Highway Network Scheduling - Great Lakes Area          NL-AR-04-003       3/29/2004        72             5,352,877         48           22           2
Bulk Mail Center Transportation Routes - Great Lakes
 Area                                                  NL-AR-04-004        9/29/2004      96              7,660,533        49             7          40

                        Totals                                                           1,011      $    50,546,020        544           323         144




                                                                      6
Surface Networks – Intermodal Rail and Highway             NL-AR-05-004
 Transportation – Pacific Area




                       APPENDIX B. MANAGEMENT’S COMMENTS




                                                 7
Surface Networks – Intermodal Rail and Highway       NL-AR-05-004
 Transportation – Pacific Area




                                                 8
